USCA4 Appeal: 18-6906

Doc: 52

Filed: 03/23/2020

Pg: 1 of 27

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-6906
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
MARIO SALAS,
Defendant - Appellant.

Appeal from the United States District Court for the Eastern District of Virginia, at
Richmond. Henry E. Hudson, Senior District Judge. (3:98-cr-00166-HEH-l)
Argued: December 10, 2019

Decided: March 23, 2020

Before DIAZ and QUATTLEBAUM, Circuit Judges, and Max O. COGBURN, Jr., United
States District Judge for the Western District of North Carolina, sitting by designation.
Affirmed by unpublished opinion. Judge Cogbum wrote the opinion, in which Judge Diaz
and Judge Quattlebaum joined.
ARGUED: Sarah Ray Bennett, MCGUIREWOODS, LLP, Richmond, Virginia, for
Appellant. Daniel Taylor Young, OFFICE OF THE UNITED STATES ATTORNEY,
Alexandria, Virginia, for Appellee. ON BRIEF: Matthew Allen Fitzgerald,
MCGUIREWOODS, LLP, Richmond, Virginia; Nicholas Richard Klaiber, Kelly Marie
Morrison, CAPITAL ONE, Richmond, Virginia, for Appellant. G. Zachary Terwilliger,
United States Attorney, OFFICE OF THE UNITED STATES ATTORNEY, Alexandria,
Virginia, for Appellee.

USCA4 Appeal: 18-6906

Doc: 52

Filed: 03/23/2020

Pg: 2 of 27

Unpublished opinions are not binding precedent in this circuit.

2

USCA4 Appeal: 18-6906

Doc: 52

Filed: 03/23/2020

Pg: 3 of 27

COGBURN, District Judge:
Appellant Mario Salas challenges the district court’s denial of his Rule 60(b)
motion.
For the following reasons, we affirm.
I.
In June 1998, a grand jury sitting in Richmond, Virginia, indicted Salas and his halfbrother on a single count of conspiring to distribute heroin, in violation of 21 U.S.C. §§
846 and Ml- Under § 841(b)(1)(C), conspiring to distribute any amount of heroin is
punishable by not more than 20 years’ incarceration, whereas under § 841(b)(1)(A),
conspiring to distribute one kilogram or more of heroin is punishable by a mandatory
minimum of 10 years’ incarceration and a maximum term of life imprisonment. While the
indictment did not allege that the defendants conspired to distribute any specific quantity
of heroin, it put the defendants on notice that the amount was substantial by seeking
forfeiture of $1 million in drug proceeds. J.A. 15.
Before trial, the government met with Salas, previewed its evidence, and offered
him a plea bargain whereby he would admit to conspiring to distribute approximately 1.5
kilograms of heroin. Salas rejected the offer and proceeded to trial. J.A. 35-38. After two
days of testimony, a jury found him guilty. J.A. 6 (ECF Nos. 67-68). Salas was represented
at trial by Peter Eliades, who was appointed under the Criminal Justice Act. J.A. 3 (ECF
No. 6).
The government’s trial evidence established that Salas oversaw a heroin distribution
organization headquartered in Brooklyn and run out of his restaurant, El Olympico, and his
3

USCA4 Appeal: 18-6906

Doc: 52

Filed: 03/23/2020

Pg:4of27

night club, called “the 880 Club.” Suppl. App. (“S.A.”) 22-23, 42, 54, 194-95, 226-27.
Salas and his co-conspirators supervised numerous transporters and distributors whom they
directed to travel to, and take up residence in, the Richmond area to sell heroin. Salas’s
drug-runners transported heroin to Virginia in hollowed-out candles, stuffed animals, and,
in several instances, a machine designed to treat a child’s asthma. S.A. 31-32, 35-37, 80
82,218-19, 230, 254.
The government called thirteen witnesses, several of whom testified about the
quantity of heroin involved in the conspiracy. Patricio Mateo testified that, at Salas’s
direction, he transported 500 grams of heroin from New York to Richmond between three
and four times per month between June and November 1997. S.A. 29-30, 32. That
conservatively amounts to about nine kilograms.1 Mateo also testified that selling 400
grams of heroin resulted in proceeds of about $50,000, S.A. 56, meaning that the $1 million
in drug money sought as forfeiture in the indictment was equivalent to around eight
kilograms. Marcellus Brandon testified that he helped Salas’s dealers in Richmond
distribute about two to three ounces of heroin per day for about eight months. S.A. 149
150. Assuming, conservatively, that two ounces were distributed each weekday, this
amounts to just under nine kilograms.2 In addition to the significant drug weight described
by Mateo and Brandon, Dwayne Jefferson testified that he (or others acting on his behalf)

1 0.5 kilograms x 3 shipments per month x 6 months - 9 kilograms.
2 2 ounces x 28 grams per ounce x 20 weekdays per month x 8 months = 8.96
kilograms. See United States v. Jeffers, 570 F.3d 557. 570 (4th Cir. 2009) (noting that one
ounce is about 28 grams).
4

USCA4 Appeal: 18-6906

Doc: 52

Filed: 03/23/2020

Pg: 5 of 27

purchased between one and two ounces of heroin every three or four days for four months
from an apartment in Richmond for re-distribution, sometimes with Salas present. S.A.
177-180, 183-84. This amounts to an additional 840 grams.3
After the government rested, Salas moved for a judgment of acquittal, and the
district court denied the motion. S.A. 275-78. Salas called no witnesses. After the parties
delivered their closing arguments, S.A. 281-304, and the district court instructed the jury,
S.A. 304-24, the jury deliberated for less than an hour before it returned a verdict of guilty,
S.A. 325-26.
In advance of Salas’s sentencing, the Probation Office prepared a Presentence
Investigation Report (“PSR”). The PSR identified several instances in which members of
the conspiracy distributed more than one kilogram of heroin. See, e.g., J.A. 227 ^ 11
(estimating that Dwayne Jefferson sold at least 1.27 kilograms of heroin for the
conspiracy); J.A. 228

13 (estimating that Patricio Mateo sold over 17 kilograms). The

PSR ultimately concluded that Salas was accountable for the distribution of 31.44
kilograms of heroin. J.A. 234 ][ 44. It further described Salas as “the leader of the
organization” who was “responsible for the purchasing, packaging, and transporting of
heroin to Richmond,” in addition to being “the primary recruiter of other participants
within the conspiracy.” Id.

3 1 ounce x 28 grams per ounce x 30 distribution days = 840 grams.

5

USCA4 Appeal: 18-6906

Doc: 52

Filed: 03/23/2020

Pg: 6 of 27

The attribution of 31.44 kilograms of heroin to the conspiracy resulted in a base
offense level of 38 under the Sentencing Guidelines. J.A. 243. The PSR then applied
enhancements for being a leader and organizer of the conspiracy, using a minor in support
of the conspiracy, and possessing a firearm in furtherance of the conspiracy. This resulted
in a total offense level of 46. J.A. 243-44. Under the then-applicable Guidelines, any
offense level of 43 or higher resulted in a term of life imprisonment. J.A. 241.
Salas objected to the drug-weight calculation in the PSR, arguing that the Probation
Office had impermissibly looked to the contents of government reports, including DEA
summaries of witness interviews, to calculate the total amount of heroin involved in the
conspiracy. J.A. 19-21. He asserted that, “at the very least,” the district court ought to
conclude that there were only 30 kilograms involved in the conspiracy, instead of 31.44
kilograms, which would result in a base offense level of 36 instead of 38. J.A. 21. Salas
also challenged the factual basis for the three Guideline enhancements. J.A. 21-24. The
district court overruled Salas’s objections to the Guideline enhancements. J.A. 31. Salas
never argued that the jury was required to determine the relevant drug weight. As to drug
weight, the district court concluded that the conspiracy involved “at least ten kilograms but
less than 30 kilograms” of heroin, thereby reducing Salas’s base offense level from 38 to
36. J.A. 31-32. Salas’s new total offense level of 44 still resulted in a Guideline sentence
of life imprisonment, which the district court imposed. J.A. 32, 42—47.
Salas appealed his conviction and sentence, arguing that the evidence was
insufficient to convict him and the district court erred by imposing the three challenged
Guideline enhancements. On February 28, 2000—after Salas’s opening brief was filed but
6

USCA4 Appeal: 18-6906

Doc: 52

Filed: 03/23/2020

Pg: 7 of 27

before the Court issued its opinion—Salas filed a motion in the district court seeking to
compel his attorney to communicate with him about his appeal. J.A. 8 (ECF No. 96). The
district court granted the motion and directed Salas’s lawyer “to provide Defendant with a
copy of the trial transcript, and communicate with Salas and tell him whether or not an
appeal was filed,” and, “[i]f an appeal was filed ... to forward to the Defendant copies of
all pleadings filed with the Fourth Circuit.” J.A. 48. The district court entered its order on
the same day that we affirmed Salas’s conviction and sentence. United States v. Salas, No.
99-4488, 7.000 WT. 384040 (4th Cir. Apr. 17, 2000) (per curiam) (“Salas 7”).
Under Supreme Court rules, Salas had 90 days from April 17,2000, to file a petition
for certiorari, Sup. Ct. R. 13(1) (1999), making the deadline July 17, 2000.4 Meanwhile,
on June 26, 2000, the Supreme Court decided Apprendi v. New Jersey, 530 U.S. 466
(2000), holding that “any fact that increases the penalty for a crime beyond the prescribed
statutory maximum must be submitted to a jury, and proved beyond a reasonable doubt.”
Id. at 490. The Supreme Court had granted certiorari in Apprendi on November 29, 1999,
five days after Salas filed his opening brief on direct appeal in this Court. Even so, Salas
never filed a reply brief on direct appeal, much less one referencing Apprendi as a pending
case or one making an Apprendi-type argument. Nor, after Apprendi was issued, did Salas
file a petition for certiorari in the 21 days remaining before his time to do so expired.

4 90 days from April 17, 2000, fell on July 16, 2000, a Sunday. This made the actual
deadline Monday, July 17. See Sup. Ct. R. 30(1) (1999).
7

USCA4 Appeal: 18-6906

Doc: 52

Filed: 03/23/2020

Pg:8of27

Instead, on July 13, 2000—four days before his certiorari deadline—Salas filed
motions in the district court seeking to replace his attorney. J.A. 8 (ECF Nos. 109 & 110).
The district court ruled on the motions on July 28, 2000, after the time to file a petition for
certiorari had run. J.A. 49-50. The district court denied the motions as moot, reasoning that
once we had affirmed Salas’s conviction, his trial counsel no longer represented him. Even
so, the district court directed Salas’s counsel, Peter Eliades, to file “a letter detailing the
manner in which he has complied with the Court’s April 17,2000 Order that directed [him]
to both provide Defendant with a copy of the trial transcript and any pleadings filed with
the Fourth Circuit, and to communicate with Salas regarding the status of the appeal.” J.A.
49.5 No responsive letter from counsel appears on the district court’s docket.
Under our decision in United States v. Torres, 211 F.3d 836. 837 (4th Cir. 2000), in
the absence of a petition for certiorari, Salas’s conviction became final “on the date that
this Court’s mandate issue[d] in his direct appeal.” The mandate issued on May 9, 2000,
see No. 98-4488 (ECF No. 44), and Salas’s conviction was therefore final as of that date.
Salas filed his first motion to vacate under 28 U.S.C. § 2255 in January 2001. J.A.
9 (ECF Nos. 118-19). The petition raised three claims, including a claim of Apprendi error,
J.A. 58-59, and two claims of ineffective assistance of counsel. More specifically, Salas

5 There is no “federal constitutional right to counsel on direct discretionary appeals.”
United States v. Taylor, 414 F.3d 528. 536 (4th Cir. 2005) (citing Ross v. Moffitt, 417 U.S.
600. 610 (1974)). Even so, an attorney appointed under the Criminal Justice Act has a duty
to “inform [a defendant] of the result of his appeal to this court and of his right to petition
the Supreme Court for certiorari.” Proffitt v. United States, 549 F.2d 910. 912 (4th Cir.
1976); accord United States v. King, 11 F. App’x 219. 221 (4th Cir. 2001).

8

USCA4 Appeal: 18-6906

Doc: 52

Filed: 03/23/2020

Pg: 9 of 27

argued that Eliades, his counsel at trial and on appeal, performed deficiently by failing to
request a poll of the jury and in advising him not to plead guilty. J.A. 59-61. Salas did not
claim that Eliades was ineffective for failing to consult with him about filing a certiorari
petition.
A few months after Salas’s § 2255 motion was docketed, we held, in United States
v. Sanders, 247 F.3d 139. 148 (4th Cir. 2001), that Apprendi does not apply retroactively
on collateral review. Because, under Torres, Salas’s conviction had become final before
Apprendi was decided, the district court held that Sanders foreclosed Salas’s Apprendi
claim. J.A. 92-93. The district court also denied Salas’s ineffective assistance of counsel
claims. J.A. 93-96.
Salas appealed, filing an informal brief on June 4, 2002. J.A. 105-07. He continued
to pursue his Apprendi claim, arguing that, under Griffith v. Kentucky, 479 U.S. 314 119871.
his conviction became final when his 90-day window to file a petition for certiorari closed.6
Therefore, he claimed, “Apprendi applie[d] retroactively to [his] case.” J.A. 105.
While the appeal of the denial of Salas’s § 2255 motion was pending, the Supreme
Court held in Clay v. United States, 537 U.S. 522 (2003), that, under § 2255, “[f]inality
attaches when this Court affirms a conviction on the merits on direct review or denies a
petition for a writ of certiorari, or when the time for filing a certiorari petition expires.” Id.

6 Griffith held that the rule of Batson v. Kentucky, 476 U.S. 79 (1986), applied “to
litigation pending on direct state or federal review or not yet final when Batson was
decided.” Griffith, 479 TJ.S. at 316. In a footnote, Griffith stated that “final” meant “a case
in which a judgment of conviction has been rendered, the availability of appeal exhausted,
and the time for a petition for certiorari elapsed or a petition for certiorari finally denied.”
Id. at 321 n.6.
9

USCA4 Appeal: 18-6906

Doc: 52

Filed: 03/23/2020

Pg: 10 of 27

at 527 (citing Griffith, 479 TJ.S. at 321 n.6). Clay thus abrogated our decision in Torres, the
precedent applied by the district court in ruling that Salas could not raise mApprendi claim
because his conviction was final before Apprendi was decided. On July 11, 2003, we
nonetheless denied a certificate of appealability and dismissed the appeal, stating that Salas
“ha[d] not made a substantial showing of the denial of a constitutional right.” United States
v. Salas, 68 F. App’x 484. 484 (4th Cir. 2003) (per curiam) (uSalas IT’). Salas then sought
panel rehearing or rehearing en banc, pointing out that the Supreme Court had decided Clay
while his appeal was pending. J.A. 109-110. On September 2,2003, we denied the request.
J.A. 112-13. Salas then filed a petition for certiorari, which the Supreme Court denied. See
Salas v. United States, 124 S. Ct. 1462 (2004).
Salas re-raised his Apprendi claim at least three times in the district court. First, in
September 2003, Salas filed a motion under Rule 60(b) to alter or vacate the district court’s
denial of his first § 2255 petition. J.A. 114-121. Salas’s motion raised the same argument
appearing in his unsuccessful en banc petition—i.e., that Clay abrogated Torres such that
his conviction was not final when Apprendi was decided. J.A. 114. The district court
construed the motion as an unauthorized successive petition and dismissed it for lack of
jurisdiction. Salas did not appeal.
Then, in June 2005, Salas filed a second motion under Rule 60(b), this time arguing
that his trial counsel had been ineffective in failing to communicate with him about his
appeal and failing to file a petition for certiorari that would have preserved his Apprendi
claim. J.A. 128-38. The district court also construed this motion as an unauthorized
successive petition and dismissed it for lack of jurisdiction. J.A. 149-50.
10

USCA4 Appeal: 18-6906

Doc: 52

Filed: 03/23/2020

Pg: 11 of 27

Finally, in July 2005, Salas filed a motion under Rule 59(e) to alter or amend the
district court’s dismissal of his second Rule 60 motion. J.A. 151-56. The motion relied on
Gonzalez v. Crosby, 545 TJ.S. 524 (2005), decided in June 2005. There, the Supreme Court
held that a Rule 60(b) motion “is not to be treated as a successive habeas petition if it does
not assert, or reassert, claims of error in the movant’s ... conviction.” Id. at 538.7 Gonzalez
further explained that a Rule 60(b) motion challenging only a district court’s application
of a habeas statute of limitations is not a second or successive petition. Id. at 534. Salas
relied on Gonzalez to argue that he could use Rule 60(b) to challenge the district court’s
prior determination about his conviction’s finality. The district court denied this motion as
improperly successive but then instructed Salas that he could “move the Fourth Circuit
Court of Appeals for an order authorizing the district court to consider his successive
application.” J.A. 157-160.
Salas then appealed the denial of his second Rule 60(b) motion and his Rule 59
motion to this Court, where he filed an informal brief in August 2005. No. 05-7207 (ECF
Nos. 1 & 11); S.A. 328-34. He argued that the district court had erred in construing his
second Rule 60(b) motion as a second-or-successive petition, citing Gonzalez. S.A. 329.
He also asserted that his trial counsel’s purported failure to communicate with him about
filing a petition for certiorari had unjustly foreclosed him from obtaining Apprendi relief.

7 Gonzalez addressed Rule 60(b) as applied to state habeas petitions under 28 U.S.C.
§ 2254. but it applies equally to § 2255 motions to vacate. See, e.g., United States v. McRae,
793 F.3d 392. 397 (4th Cir. 2015).

11

USCA4 Appeal: 18-6906

Doc: 52

Filed: 03/23/2020

Pg: 12 of 27

S.A. 331. We dismissed the appeal in November 2005. United States v. Salas, 155 F.
App’x 691 (4th Cir. 2005) (per curiam) (“Salas IIF). We simultaneously construed Salas’s
appeal as an application for a certificate of appealability and as an application to file a
second-or-successive habeas petition, and we denied the application. Salas filed a petition
for panel rehearing or rehearing en banc, which we denied. No. 05-7207 (ECF Nos. 22,
28). He then filed a petition for certiorari, which the Supreme Court denied. See Salas v.
United States, 126 S. Ct. 2047 (2006).
In May 2010, Salas filed an application for a writ of mandamus in this Court, which
we construed as a motion to recall the mandate and docketed as a motion in his direct
appeal. See No. 99-4488 (ECF No 48); J.A. 166-74.8 In substance, Salas sought to file an
out-of-time petition for certiorari to the Supreme Court on the theory that, if such a petition
were filed, it would have the effect of retroactively making Apprendi relief available to
him. J.A. 166. Salas argued that such relief was appropriate because, he claimed, his
counsel had never communicated with him after he was convicted, either about the
substance of his direct appeal or about filing a petition for certiorari. J.A. 170, 183. In June

8

Salas filed other motions not relevant to this opinion in the interim. In 2006, Salas
filed a notice with the district court seeking to preserve a claim under United States v.
Booker, 543 IJ.S. 220 (2005). The district construed the filing as a motion and denied it.
From 2007 to 2009, Salas continued to pursue relief, filing one motion unrelated to his
Apprendi claim and the denial of his first § 2255 petition. See J.A.ll. Furthermore, from
2011 through 2016, Salas filed one motion unrelated to his Apprendi claim and the denial
of his first § 2255 petition. He unsuccessfully pursued an appeal of this motion. See J.A. 1112.

12

USCA4 Appeal: 18-6906

Doc: 52

Filed: 03/23/2020

Pg: 13 of 27

2010, we issued a notice to Salas’s prior attorney, Peter Eliades, requiring him to respond.
No. 99-4488 (ECF No. 50).
Eliades filed a two-page response, asserting that his prior law firm could no longer
retrieve Salas’s file because it had been “shredded.” J.A. 185. He also disclaimed having
any “independent recollection of Salas requesting that this case be appealed to the U.S.
Supreme Court,” although he acknowledged that he “[d]id not recall advising Salas, in
writing, of his right to file” a certiorari petition. J.A. 186. Eliades also stated that he could
only “assume” that he was “totally compliant” with the district court’s two orders to himthe first, from April 2000, requiring him to communicate with Salas about his appeal, J.A.
48, and the second, from July 2000, requiring him to file a letter with the district court
detailing those communications. J.A. 49-50. We then denied the motion to recall the
mandate. J.A. 187. Salas sought panel rehearing or rehearing en banc, and the Clerk of the
Court informed him that his request was impermissible given the procedural posture of the
case. No. 99-4488 (ECF Nos. 54 & 55).
In December 2016, Salas moved for a sentence reduction under 18 U.S.C. § 3582(cl
and amendment 782 to the Guidelines, which lowered the offense levels applicable to
various drug offenses. J.A. 12 (ECF No. 174). The district court granted the motion,
reducing Salas’s sentence to thirty years. J.A. 12 (ECF No. 178).

13

USCA4 Appeal: 18-6906

Doc: 52

Filed: 03/23/2020

Pg: 14 of 27

In March 2018, Salas filed his third motion under Rule 60(b)(4). J.A. 188-97.9 He
again sought to re-raise his Apprendi claim, this time by arguing that his judgment of
conviction was void for lack of jurisdiction. See Fed. R. Civ. P. 60(bX4). Salas advanced
two arguments. First, he again asserted that, under the Supreme Court’s decision in Clay,
his conviction was not final when Apprendi was decided and the district court had erred in
concluding otherwise. J.A. 189-91. Second, he argued that under the Supreme Court’s
decision in Gonzalez, his Rule 60(b) motion properly attacked a defect in the habeas
proceeding and did not raise an impermissible second-or-successive claim. J.A. 191-95.
Salas did not renew his attack on his trial counsel’s performance.
The district court denied the motion in May 2018 as untimely and for failure to
establish extraordinary circumstances. J.A. 210-14. Although Salas had styled his motion
as one brought under only Rule 60(b)(4), the district court also considered whether Salas
might be entitled to relief under Rule 60(b)(6). The district court reasoned that a Rule 60(b)
motion “must be made within a reasonable time” of the proceeding it challenges, Fed. R.
Civ. P. 60(c¥1T The court stated that since Salas’s motion sought relief from the district
court’s denial of his first habeas petition, Salas was obliged to file it shortly after the district
court entered its order denying that petition in January 2002. Accordingly, Salas’s motion,
“filed over sixteen years after the entry of the challenged judgment, was not filed in a

9 The motion was erroneously docketed in the Alexandria Division as a petition
under 28 IJ.S.C. § 2241. The request was subsequently transferred to the Richmond
Division and properly docketed as a Rule 60(b) motion. J.A. 206-08.

14

USCA4 Appeal: 18-6906

Doc: 52

Filed: 03/23/2020

Pg: 15 of 27

reasonable time.” J.A. 211. Second, the district court noted that the Supreme Court has
explained that “a movant seeking relief under Rule 60(b)(6) [needs] to show ‘extraordinary
circumstances’ justifying the reopening of a final judgment.” Gonzalez, 545 U.S. at 535
(quoting Ackermann v. United States, 340 U.S. 193,199 (1950)). Applying Supreme Court
and Circuit precedent, the district court concluded that the change in law regarding when a
conviction becomes “final” under § 2255 (i.e., the shift from Torres to Clay in 2003) did
not satisfy this requirement.
This appeal followed.
II.
A.
Salas conceded at oral argument that, although styled as a Rule 60(b)(4) motion, the
district court properly construed it as one also brought under Rule 60(b)(6). Salas also
conceded that the 60(b)(4) motion was properly denied and that the focus of the appeal is
the Rule 60(b)(6) motion.
To obtain relief from a judgment under Rule 60(b), “a moving party must first show
(1) that the motion is timely, (2) that he has a meritorious claim or defense, and (3) that the
opposing party will not suffer unfair prejudice if the judgment is set aside.” United States
v. Welsh, 879 F.3d 530. 533 (4th Cir. 2018). Under Rule 60(b)(6), the party must also show
extraordinary circumstances. Gonzalez, 545 U.S. at 535. Denial of a Rule 60(b)(6) motion
is reviewed for abuse of discretion. Welsh, 879 F.3d at 533 (4th Cir. 2018). Salas contends
that the district court abused its discretion in denying the Rule 60(b)(6) motion because of
the “extraordinary circumstances” in this case—namely, that over a span of almost twenty
15

USCA4 Appeal: 18-6906

Doc: 52

Filed: 03/23/2020

Pg: 16 of 27

years, Salas was incorrectly and repeatedly deprived of his right to pursue an Apprendi
claim, which he maintains would have resulted in a reduction in his sentence. Salas argues
that, had he been able to pursue his Apprendi claim, he likely would have been sentenced
to twenty years of imprisonment, rather than to life, and that he would have been released
from prison by now.10 Salas asserts that we first erred in 2003 when we declined to rehear
Salas’s appeal from the denial of his § 2255 petition after the Supreme Court decided Clay.
Salas maintains that our alleged error in 2003 was the beginning of the “extraordinary
circumstances” that have allegedly resulted in an injustice to Salas. For the following
reasons, we cannot agree.
As Salas notes, in declining to hear his appeal from the denial of his first § 2255
petition, we held:
Mario Salas seeks to appeal the district court’s order denying his motion filed
under 28 IT.S.C. § 2255 (2000). We have reviewed the record and the district
court’s opinion and conclude that Salas has not made a substantial showing
of the denial of a constitutional right. See 28 U.S.C. § 2253fcY21 (2000).
Accordingly, we deny a certificate of appealability and dismiss the appeal.
Salas II, 68 F. App’x at 484. Critically, we did not hold that Salas’s conviction was final
when Apprendi was decided. Rather, we held that Salas had failed to make “a substantial
showing of the denial of a constitutional right.” Id. That holding was correct for several
reasons.

10 As noted, Salas’s sentence has been reduced to a 30-year term of incarceration.
The Bureau of Prisons website indicates that his release date is July 29, 2024.

16

USCA4 Appeal: 18-6906

Doc: 52

Filed: 03/23/2020

Pg: 17 of 27

First, because Salas did not raise an argument at trial or on direct appeal that the
jury was required to determine the relevant drug weight, he procedurally defaulted this
claim.11 See Bousley v. United States, 523 TJ.S. 614.622 (1998). A defendant can overcome
his default if he can show either (1) cause for the default and prejudice resulting therefrom,
or (2) actual innocence. Id. Salas has never argued that he is actually innocent of conspiring
to distribute one kilogram or more of heroin. Accordingly, his Apprendi claim is viable
only if he can satisfy the cause-and-prejudice exception to procedural default.
Salas cannot show cause for his default. He has not attempted to argue that Apprendi
was so novel that he should be excused from his failure to raise such a claim before
Apprendi was decided. Even if he had raised this argument, our decision in Sanders would
foreclose this assertion. See Sanders, 247 F.3d at 144-46. Sanders rejected two
arguments—first, that the basis for an Apprendi claim was not reasonably available before
Apprendi was decided, and second, that it would have been futile to raise such a claim.
Sanders noted that, in Bousley itself, the Supreme Court explained that “futility cannot

11 At argument, the government denied that it has waived the right to raise this
procedural default argument, and the government alternatively invoked the exceptions to
the “waiver of the waiver” rule as set forth in United States v. Metzger, 3 F.3d 756 (4th Cir.
1993). We agree that the Metzger exceptions—the interests in “judicial efficiency,
conservation of scarce judicial resources, and orderly and prompt administration of
justice”—are particularly applicable here. In any event, we find that, even if the
government’s procedural default argument was not preserved, we could reach the same
conclusion. This is because, as we discuss, infra, even if the government waived the right
to raise procedural default, Salas must still show prejudice, and he has failed to do so.

17

USCA4 Appeal: 18-6906

Doc: 52

Filed: 03/23/2020

Pg: 18 of 27

constitute cause if it means simply that a claim was unacceptable to that particular court at
that particular time.”12 Id. at 145 (quoting Bousley, 523 U.S. at 6231.
A defendant may also establish cause for a procedural default by showing that
defense counsel performed deficiently by failing to raise a particular claim. See Murray v.
Carrier, All U.S. 478. 488 (1986) (holding that constitutionally ineffective assistance of
counsel may provide cause for a procedural default). In United States v. Dyess, 730 F.3d
354 (4th Cir. 2013), however, we held that a defense attorney’s failure to anticipate
Apprendi does not constitute deficient performance. See id. at 363. Thus, under Sanders
and Dyess, Salas cannot show cause for failing to raise an Apprendi-type claim on direct
appeal.
Moreover, Salas’s counsel’s performance in this case did not result in an injustice
to Salas. Salas argues that counsel’s failure to file a petition for certiorari raising an
Apprendi claim somehow forfeited his ability to seek Apprendi relief. But a defendant who
raises a claim for the first time in a certiorari petition has still procedurally defaulted that
claim. See Bousley, 523 IJ.S. at 622 (stating that a petitioner procedurally defaults a claim
“by failing to raise it on direct review”); Peveler v. United States, 269 F.3d 693. 698-99
(6th Cir. 2001) (holding that a defendant “cannot avoid procedural default by asserting [a]
claim” for the first time in a certiorari petition). Thus, even if counsel had raised an

12 Sanders also favorably quoted a case, United States v. Nance, 236 F.3d 820 (7th
Cir. 2000), where the Seventh Circuit noted that “as far back as 1997 defendants were
arguing ... that the type of drug that they were charged with distributing in violation of 21
IJ.S.C. § 841 was an element of the offense that had to be proven to the jury beyond a
reasonable doubt.” Sanders, 247 F.3d at 145 (quoting Nance, 236 F.3d at 8231.
18

USCA4 Appeal: 18-6906

Doc: 52

Filed: 03/23/2020

Pg: 19 of 27

Apprendi argument in a petition for certiorari, Salas would nonetheless need to show cause
and prejudice to obtain relief on his procedurally defaulted claim. Because Sanders and
Dyess foreclose him from showing cause, his claim necessarily fails.13
Even if Salas could show cause for failing to raise an Apprendi-type argument at
trial or on direct appeal, he still could not establish prejudice. To establish prejudice, a
“habeas petitioner must show ‘not merely that the errors at... trial created a possibility of
prejudice, but that they worked to his actual and substantial disadvantage, infecting his
entire trial with error of constitutional dimensions.” Carrier, All U.S. at 494 (quoting
United States v. Frady, 456 U.S. 152. 170 (1982)) (ellipsis in original). “The burden rests
with the petitioner to show that there is a reasonable probability that the jury would have
reached a different, more favorable conclusion.” Dermanv. United States, 298 F.3d 34.46
(1st Cir. 2002) (citing Coleman v. Thompson, 501 U.S. 122. 750 (T991Y): accord Pettigrew,
346 F.3d at 1144^15. “[T]he ‘showing of prejudice’ required to overcome procedural
default on collateral review ‘is significantly greater than that necessary’ to establish plain
error on direct review.” Pettigrew, 346 F.3d at 1144 (quoting Carrier, All U.S. at 49394). For purposes of assessing an Apprendi error, the “inquiry focuses on the likelihood
that the jury, had it been asked the question, would have found that the underlying

13 The government also argues that, even if Salas’s claim is not procedurally
defaulted and time-barred, Salas’s claim would still fail under a plain error standard of
review. The plain error standard of review does not apply. The government is correct,
however, that Salas’s claim would fail under this standard of review if it did apply. See
United States v. Cotton, 535 U.S. 625 (2002); United States v. Brown, 757 F.3d 183. 194
(4th Cir. 2014); Dyess, 730 F.3d at 361: United States v. Hadden, 475 F.3d 652. 671-72
(4th Cir. 2007); United States v. Smith, 441 F.3d 254. 272 (4th Cir. 2006); United States v.
Mackins, 315F.3d399. 408 (4th Cir. 2003).
19

USCA4 Appeal: 18-6906

Doc: 52

Filed: 03/23/2020

Pg: 20 of 27

conspiracy involved the manufacture and distribution of at least” the required quantity of
drugs. Derman, 298 F.3d at 46.
The jury in this case would easily have concluded that the conspiracy involved one
kilogram or more of heroin. Two witnesses, Patricio Mateo and Marcellus Brandon,
testified that they transported or distributed multiple kilograms of heroin in furtherance of
the conspiracy. S.A. 29-30, 150. Another witness, Dwayne Jefferson, testified that he (or
others acting on his behalf) purchased between one and two ounces of heroin every three
or four days for four months from persons associated with the conspiracy, sometimes with
Salas present. S.A. 177-180, 183-84. Salas did not contest these amounts during trial,
instead focusing on the witnesses’ credibility. Then, at sentencing, Salas’s chief argument
as to drug weight was that the district court should find that the conspiracy involved 30
kilograms of heroin rather than 31.44 kilograms. J.A. 21. To receive a life sentence, Salas
only had to be found responsible for at least one kilogram. Salas’s argument that the jury
would not have found him to be responsible for at least this amount strains credulity. Thus,
Salas cannot establish prejudice arising from his procedural default.u Accord Derman, 298
F.3d at 46 (where the defendant did not raise an Apprendi-iyyQ claim on direct appeal,
Apprendi was decided between the appellate court’s affirmance of the defendant’s
conviction and the date the defendant’s conviction became final, and the defendant raised

14 As we explained in Dyess, prejudice is particularly difficult to show in this
context. That is, if, before trial, Salas had made a pre-Apprendi argument that the jury was
required to find the requisite drug weight, “the Government could have simply issued a
superseding indictment with drug weights” expressly charged. 730 F.3d at 363-64. Had
the government done so here, the jury easily would have convicted Salas of conspiring to
distribute one kilogram or more of heroin.
20

USCA4 Appeal: 18-6906

Doc: 52

Filed: 03/23/2020

Pg: 21 of 27

an Apprendi claim for the first time in a timely § 2255 petition, finding no prejudice where
the evidence of sufficient drug weight was “commanding”); see also United States v.
Pettigrew, 346 F.3d 1139. 1144—48 (D.C. Cir. 2003) (holding that the defendant could not
show prejudice sufficient to overcome his procedural default, noting that when “quantity
[is] uncontested at trial, there is no reason to expect that the trial’s outcome would have
been different had the issue been specifically put to the jury”).
In sum, when, in 2003, we declined to issue a certificate of appealability on Salas’s
§ 2255 petition because he “ha[d] not made a substantial showing of the denial of a
constitutional right,” Salas II, 68 F. App’x at 484. we were correct in so finding. The
finality issue was not, and never has been, dispositive.15 If we had vacated the district
court’s finality ruling in 2003 and remanded the case for further consideration in light of
Clay, the district court simply would have concluded that Salas had procedurally defaulted
his claim and could not overcome that default through a showing of cause or prejudice. For
the same reason, any Apprendi error in this case had no “substantial and injurious effect”
and was therefore harmless. United States v. Smith, 723 F.3d 510. 517 (4th Cir. 2013)
(explaining how harmlessness standards apply on collateral review); accord Sustache-

15 As the government notes, we remanded several cases that were on appeal from
the denial of habeas relief when Clay was decided. See, e.g, United States v. McDonald,
64 F. App’x 359. 361 (4th Cir. 2003). The fact that we chose not to do so here supports the
conclusion that we did not view the finality issue as critical. That is, whereas we decided
in some cases that Clay might affect the resolution of some Apprendi claims, our rejection
of Salas’ Apprendi claim reflects a determination in this case that Clay would not affect
the resolution of Salas’s Apprendi claim, given the overwhelming evidence of drug
quantity against Salas at trial.
21

USCA4 Appeal: 18-6906

Doc: 52

Filed: 03/23/2020

Pg: 22 of 27

Rivera v. United States, 221 F.3d 8. 18 (1st Cir. 2000) (rejecting an Apprendi claim raised
on collateral review on harmlessness grounds).
B.
We also affirm for another reason: the district court’s two reasons for denying
Salas’s motion—untimeliness and failure to show “extraordinary circumstances”—were
correct. First, Salas’s motion was untimely. Under Rule 60(c)(1), “[a] motion under Rule
60(b) must be made within a reasonable time,” and “the movant bears the burden of
showing timeliness.” Moses v. Joyner, 815 F.3d 163. 166 (4th Cir. 2016). Salas’s
“extraordinary circumstances” claim derives from his argument that the district court
wrongly concluded in January 2002 that Salas’s conviction was final before Apprendi was
decided. That error was apparent, however, by the latest, when Clay was decided in March
2003, which is why Salas relied on Clay in his first Rule 60(b) motion filed in September
2003, in which he raised the same Apprendi claim he raises here, and where he first raised
the Clay issue before the district court. J.A. 114-21. The claim may have been timely at
that point. Salas did not, however, appeal the denial of this first Rule 60(b) motion, and his
claim is certainly not timely now, well over a decade after the purported error became clear.
See Wells Fargo Bank, N.A. v. AMH Roman Two NC, LLC, 859 F.3d 295. 300 (4th Cir.
2017) (delay of two years was “not reasonably timely”); Moses, 815 F.3d at 166 (delay of
fifteen months was “inordinate”); McLawhorn v. John W Daniel & Co., 924 F.2d 535. 538
(4th Cir. 1991) (per curiam) (finding no abuse of discretion where district court denied as
untimely a Rule 60(b) motion filed four months after entry of summary judgment).

22

USCA4 Appeal: 18-6906

Doc: 52

Filed: 03/23/2020

Pg: 23 of 27

We have consistently barred litigants from using Rule 60 to bring what are
essentially untimely appeals. See Aikens v. Ingram, 652 F.3d 496. 501 (4th Cir. 2011) (en
banc) (“[I]f the reason asserted for the Rule 60(b)(6) motion could have been addressed on
appeal from the judgment, we have denied the motion as merely an inappropriate substitute
for an appeal.”); In re Burnley, 988 F.2d 1. 3 (4th Cir. 1992) (per curiam) (“A Rule 60(b)
motion may not substitute for a timely appeal.”). To the extent that Salas believes his claim
of Clay error should have justified relief under Rule 60, he could have sought appellate
review after the district court dismissed his first Rule 60 motion in 2004. The district court
did not abuse its discretion in dismissing the same claim when it was re-raised over a
decade later.
C.
In addition to finding that the district court properly found that the Rule 60(b)
motion was untimely, we also find that the district court did not abuse its discretion to the
extent that it denied the Rule 60(b) motion on its merits. Rule 60(b)(6) empowers a district
court to “relieve a party ...from a final judgment, order, or proceeding for ... any other
reason that justifies relief.” To obtain such relief, a defendant must make a showing of
“‘extraordinary circumstances’ justifying the reopening of a final judgment.” Gonzalez,
545 IJ.S. at 535 (quoting Ackermann, 340 IJ.S. at 1991. The gravamen of Salas’s claim is
that, because his conviction was not final under Clay when Apprendi was decided, he
should be able to raise a forfeited claim of Apprendi error on collateral review. However,
as set forth by the Supreme Court in Gonzalez, a change in the law governing finality
simply does not constitute an extraordinary circumstance justifying relief under Rule 60(b).
23

USCA4 Appeal: 18-6906

Doc: 52

Filed: 03/23/2020

Pg: 24 of 27

In Gonzalez, the defendant unsuccessfully sought post-conviction relief in state
court and then filed a federal habeas petition. Gonzalez, 545 U.S. 524. The district court
held that the habeas petition was untimely. The Supreme Court then changed the law,
holding in Artuz v. Bennett, 531 U.S. 4. 8-9 (2000), that the applicable statute of limitations
was subject to tolling in circumstances mirroring those in Gonzalez’s case. After Artuz was
decided, the petitioner in Gonzalez filed a Rule 60(b)(6) motion, seeking relief from the
order dismissing his federal habeas petition. Gonzalez held that “[bjecause petitioner’s
Rule 60(b) motion challenge[d] only the District Court’s previous ruling on the [applicable]
statute of limitations, it [was] not the equivalent of a successive habeas petition.” 545 U.S
at 535-36. The Supreme Court nonetheless affirmed the denial of habeas relief on
alternative grounds. The Court assumed that the district court’s statute-of-limitations ruling
was incorrect under Artuz, but the Court nevertheless rejected the argument that an Artuz
error constituted the kind of “extraordinary circumstance” justifying relief under Rule
60(b):
The District Court’s interpretation was by all appearances correct under the
Eleventh Circuit’s then-prevailing interpretation of 28 U.S.C. § 2244fdY2V
It is hardly extraordinary that subsequently, after petitioner’s case was no
longer pending, this Court arrived at a different interpretation. Although our
constructions of federal statutes customarily apply to all cases then pending
on direct review, not every interpretation of the federal statutes setting forth
the requirements for habeas provides cause for reopening cases long since
final.

Id. at 536 (internal citation omitted). Gonzalez explained that “[t]he change in the law
worked by Artuz is all the less extraordinary in petitioner’s case, because of his lack of
diligence in pursuing review of the statute-of-limitations issue.” Id. at 537.
24

USCA4 Appeal: 18-6906

Doc: 52

Filed: 03/23/2020

Pg: 25 of 27

Here, as in Gonzalez, the district court’s dismissal of Salas’s Apprendi claim “was
by all appearances correct” under Torres and Sanders. Here, too, the Supreme Court
changed the law in Clay, just as Gonzalez arose from the change in the law following Artuz.
Yet, as Gonzalez held, a change in the law is “hardly extraordinary” and does not “provide^
cause for reopening cases long since final. ”16 545 IJ.S. at 536: see also Agostini v. Felton,
521 IJ.S. 203. 239 (1997) (stating that “[intervening developments in the law by
themselves rarely constitute the extraordinary circumstances required for relief under Rule
60(b)(6)”).
Relying on two arguments, Salas asserts that the test for whether “extraordinary
circumstances” exist is fact-specific and that the facts here differ from those in Gonzalez.
Salas first asserts that neither Gonzalez nor Moses forecloses relief because those cases
dealt with changes in decisional law after final judgment, whereas Salas relies on a change
in decisional law that occurred while his first post-conviction appeal was still pending. But
that argument is not persuasive. As discussed above, even if the Court applied Clay and
remanded Salas’s habeas case for further consideration, Salas still would not have been
able to overcome his procedural default.

16 Even before Gonzalez was decided, we had already “held that ‘a change in
decisional law subsequent to a final judgment provides no basis for relief under Rule
60(b)(6).’” Moses, 815 F.3d at 168-69 (quoting Dowell v. State Farm Fire & Cas. Auto.
Ins. Co., 993 F.2d 46. 48 (4th Cir. 1993)); see also Hall v. Warden, Md. Penitentiary, 364
F.2d 495. 496 (4th Cir. 1966) (en banc) (stating that “judgments which had become final
long before [an intervening Supreme Court case] was decided should not be reopened
merely upon a showing of inconsistency with that decision”).

25

USCA4 Appeal: 18-6906

Doc: 52

Filed: 03/23/2020

Pg: 26 of 27

Salas also argues that his attorney’s purported abandonment in failing to advise him
about filing a petition for certiorari constitutes an extraordinary circumstance.17 We cannot
agree with Salas’s characterization of counsel’s performance. First, there has never been
any factual showing that Salas’s trial lawyer rendered deficient performance. Salas did not
raise a claim of ineffective appeal advice in his first § 2255 petition, and the district court
never held an evidentiary hearing on that issue. As the government notes, it would be odd
indeed for us to treat counsel’s purported neglect as a basis for Rule 60(b)(6) relief when
there has never been a factual finding that defendant’s trial counsel acted deficiently.
Next, even assuming that counsel was ineffective in failing to advise Salas of his
right to file a certiorari petition, this claim is time-barred. Any ineffectiveness claim here
must relate to the failure to advise Salas about his ability to file a petition for certiorari,
rather than a failure to anticipate Apprendi, because the Court has previously held that
failure to anticipate the result in Apprendi is not a basis for a claim of ineffective assistance
of counsel. Dyess, 730 F.3d at 363. Insofar as Salas argues that his failure to file a petition
for certiorari is the result of attorney negligence, he is really making a claim of “excusable
neglect” under Rule 60(b)(1), rather than a claim for relief under Rule 60(b)(6). See
Augusta Fiberglass Coatings, Inc. v. Fodor Contracting Corp., 843 F.2d 808. 811 (4th Cir.
1988) (“[W]hen the party is blameless, his attorney’s negligence qualifies as a ‘mistake’ or

17 This claim of attorney neglect, while previously raised by Salas in the district
court (in his second Rule 60(b) motion and his Rule 59 motion), and before this Court (in
Salas’s second post-conviction appeal and in his motion to recall the mandate), appears
nowhere in the motion that forms the basis for this appeal. See J. A. 188-97.
26

USCA4 Appeal: 18-6906

Doc: 52

Filed: 03/23/2020

Pg: 27 of 27

as ‘excusable neglect’ under Rule 60(b)(1).”). Any claims under Rule 60(b)(1) are,
however, subject to a one-year limitations period. And collateral consequences of any
ineffectiveness on the part of Salas’s trial attorney would have been apparent once the
Supreme Court decided Clay in March 2003. And indeed, after Clay, Salas filed his second
motion under Rule 60(b)(6), where he, for the first time, tied his Apprendi claim to his
counsel’s allegedly deficient performance. The district court then dismissed the motion,
and we affirmed on appeal. Even assuming that Salas’s second Rule 60(b) motion was
timely, Salas’s third such motion—filed over a decade later—is not.18
* * *

In sum, the district court did not abuse its discretion in concluding that Salas has
failed to show extraordinary circumstances justifying relief under Rule 60(b)(6).
Ill
For the foregoing reasons, the judgment of the district court is:
AFFIRMED.

18 As the government also notes, an ineffectiveness claim related to counsel’s failure
to advise Salas about his ability to file a petition for certiorari would also constitute an
impermissible successive petition under § 2255. See United States v. Dias, 694 F. App’x
175 (2017) (per curiam). Additionally, we note that, although the government raised the
law of the case doctrine as another reason to affirm, Salas argues, and we agree, that the
law of the case doctrine is not appropriate to the facts in this case. Indeed, at oral argument,
the government did not pursue its law of the case doctrine argument.
27

\

Case 3:98-cr-00166-HEH Document 184 Filed 05/24/18 Page 1 of 1 PagelD# 101

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division
UNITED STATES OF AMERICA,

v.
MARIO SALAS,
Petitioner.

)
)
)
)
)
)
)
)
)

Criminal Action No. 3:98CR166-HEH

ORDER
(Denying Rule 60(b) Motion)
In accordance with the accompanying Memorandum Opinion, it is hereby
ORDERED that:
1. Salas’s Rule 60(b) Motion (ECF No. 182) is DENIED; and,
2. A certificate of appealability is DENIED.
Should Salas desire to appeal, a written notice of appeal must be filed with the
Clerk of the Court within sixty (60) days of the date of entry hereof. Failure to file a
notice of appeal may result in the loss of the ability to appeal.
The Clerk is DIRECTED to send a copy of the Memorandum Opinion and Order
to Salas.
It is so ORDERED.

Date:
Richmond, Virginia

/s/
HENRY E. HUDSON
UNITED STATES DISTRICT JUDGE

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
RICHMOND DIVISION
;■

F*1

JAN 2 9 2002

MARIO SALAS

Criminal Action Number 3:98CR166

UNITED STATES OF AMERICA
Respondent, i

MEMORANDUM OPINION
This matter comes before the Court on the Petitioner’s Motion to Vacate Conviction,
pursuant to 28 U.S.C. § 2255. For the reasons discussed below, the petition is dismissed.

I.
Mario Salas was charged, along with his brother, with conspiracy to manufacture, distribute,
and possess with intent to distribute heroin in violation of 21 U.S.C. §§ 841 and 846. The indictment
against Mr. Salas, filed on June 4, 1998, did not allege any drug quantity, nor did it specify any
particular subsection of 21 U.S.C. § 841. The case went to trial in February 1999, where Mr. Salas
was represented by Peter D. Eliades, Jr. On February 23,1999, the jury returned a guilty verdict. The
verdict simply indicated that Mr. Salas was found guilty on count one. The jury made no finding as
to drug quantity.

1

11

i
i
i
' CLkwCu.S. DISTRICT COURT
i______ nSCHiVIOND, VA

Petitioner
v.

n
\ ]

On June 29,1999, this Court sentenced Mr. Salas to life imprisonment without the possibility
of parole. Mr. Salas appealed his conviction. The United States Court of Appeals for the Fourth
Circuit affirmed the conviction on April 17, 2000. On June 26, 2000, the United States Supreme
Court handed down its decision in Apprendi v. New Jersey. 530 U.S. 466 (2000). Mr. Salas filed this
petition for relief on January 12, 2001.

n.
Mr. Salas raises the following three issues in his petition:
(1) That his sentence is unconstitutional in light of Apprendi:
(2) That his attorney’s failure to poll the jury constituted ineffective assistance of
counsel; and
(3) That his attorney’s advice not to enter into a plea agreement constituted
ineffective assistance of counsel.

Mr. Salas, in moving to vacate, set aside, or correct a sentence pursuant to 28 U.S.C. § 2255,
has the burden of proving his grounds of collateral attack by a preponderance of the evidence. See
Vanater v. Boles. 377 F.2d 898, 900 (4th Cir. 1967). Each of his challenges is discussed below.

A. Unconstitutional Sentence Under Apprendi
Mr. Salas first argues that, since the indictment did not allege any drug quantity, the sentence
the Court imposed is unconstitutional. Under Apprendi. factual determinations that increase a
defendant’s maximum sentence must be made by a jury. See Apprendi. 530 U.S. at 469. As a result,

2

a jury must determine that the government has demonstrated beyond a reasonable doubt the facts
necessary to support the increased sentence. See id.
Apprendi “does not apply retroactively to cases on collateral review.” See United States v.
Sanders, 247 F.3d 139,146 (4th Cir. 2001).1 Consequently, Mr. Salas cannot make a valid argument
under Apprendi if the judgment against him became final prior to the Supreme Court’s June 26,2000
holding in that case.2 The Fourth Circuit has adopted the position that, when a defendant appeals to
the Fourth Circuit but does not file a petition for a writ of certiorari with the United States Sup reme
Court, his or her conviction becomes final on the date the conviction is affirmed by the Fourth
Circuit. See United States v. Torres. 211 F.3d 836, 838-39 (4th Cir. 2000).
In the case of Mr. Salas, the Torres holding effectively means that his conviction became
final on April 17, 2000, when the Fourth Circuit affirmed his conviction. Since this event occurred
more than two months earlier than the June 26,2000 date of the Supreme Court’s ruling in Apprendi.
Mr. Salas argument has no merit. Apprendi cannot be applied retroactively to his case.

B. Ineffective Assistance Of Counsel: Failure To Poll The Jury
Mr. Salas next argues that the failure of his counsel to have the jury polled amounts to
ineffective assistance of counsel. He asserts that this alleged error prejudiced his case by preventing

In Sanders, the Fourth Circuit applied the Supreme Court’s analysis from Teague v.
Lane, 489 U.S. 288 (1989), to Apprendi’s new rule of criminal procedure and held that it did not
apply retroactively because it did not state a “bedrock principle” that necessitated such
application. See Sanders. 247 F.3d at 146-151.
Ordinarily, if a conviction becomes final before the issuance of a decision adopting the
new rule, there is no retroactive application.” See Brooks v. United States. 166 F. Supp. 2d 366
371 (D. Md. 2001).
3

him from determining whether or not any of the jurors had been coerced into voting to convict him.
Mr. Salas believes a new trial is needed, so he can poll the jurors if, in fact, he is again convicted.
Under Strickland v. Washington. 466 U.S. 668 (1984), for Mr. Salas to succeed on an
ineffective assistance of counsel claim, he must demonstrate that counsel’s representation was not
objectively reasonable and that, if counsel had not erred, there is a “reasonable probability” that the
outcome would have been different. Id at 688-94.
Mr. Salas points to several cases without any success. He cannot cite to any controlling case
law for the proposition that failing to poll the jury rises to the level of ineffective assistance of
counsel. His reliance on United States v. Chinchic. 655 F.2d 547 (4th Cir. 1981), for instance, is
misguided. In Chinchic. the Fourth Circuit held that a verdict reached in the jury room and not read
in open court does not constitute a verdict for purposes of analyzing a double j eopardy argument. See
id. at 550. In Mr. Salas’ case, there is no assertion that the jury did not return the verdict in open
court.3
Furthermore, the facts of Mr. Salas’ case do not support an argument that the jury verdict was
not unanimous. After hearing closing arguments, the jury deliberated for only 47 minutes before
returning with a guilty verdict. See Trial Transcript at 365 (February 23,1999). The record contains
no indication of irregularities and the jury did not send the Court any questions or notes prior to
returning with the verdict. See Trial Transcript (February 23,1999). That defense counsel would opt

3Mr. Salas also relies on United States v. Gomez-Lepe. 207 F.3d. 623 (9th Cir. 2000) for
the assertion that polling the jury is a critical phase of the trial. Aside from the fact that GomezLepe is Ninth Circuit case law, Mr. Salas fails to recognize that the issue in that case was not
whether or not the jury had been polled but whether a magistrate judge exceeded his authority in
polling a jury without the defendant’s consent. See id. at 625-27.
4

not to the poll jury seems unremarkable given the ease with which the jury apparently reached the
verdict.
Mr. Salas cannot establish that Mr. Eliades acted unreasonably by any standard in failing to
poll the jury. Even if he could, he cannot establish a reasonable probability that the outcome his trial
would have differed. The record contains no indication that any juror was coerced or coaxed into
voting for a guilty verdict. Thus, Mr. Salas again falls short in his argument.

C. Ineffective Assistance of Counsel: Advice Not to Enter Guilty Plea
Mr. Salas’ last argument is that Mr. Eliades failed to provide effective assistance of counsel
when he advised his client not to plead guilty. Mr. Salas indicates that his attorney advised him not
to take a deal the government had offered, because the government could not be trusted and could
change the language of the plea agreement at any time. Mr. Salas now believes this advice was
“misleading and ineffective.”
The government and Mr. Eliades dispute the factual allegations Mr. Salas has made. In an
affidavit, Mr. Eliades states that he urged Mr. Salas to enter into a plea agreement and, in fact,
arranged several meetings with the Assistant United States Attorney to discuss the terms of a plea
agreement. See Affidavit of Peter D. Eliades at 1-2. According to Mr. Eliades, Mr. Salas turned
down a plea agreement on several occasions. See id. at 2. Assistant United States Attorney Nicholas
Altimari also indicates that he was present at several meetings between Mr. Eliades and Mr. Salas
and states that Mr. Eliades did counsel Mr. Salas about the benefits of pleading guilty. See
Government’s Response to Defendant’s 28 U.S.C. § 2255 Petition at 9.

5

Given this factual dispute, Mr. Salas cannot carry his burden on this point. He cannot
demonstrate by a preponderance of the evidence that Mr. Eliades advised him to turn down a plea
agreement. In fact, his position rests solely on his own self-serving allegations. The unsupported
allegations of Mr. Salas simply do not pass muster.

ffl.
Mr. Salas has failed to meet his burden on his Apprendi claim and on his claims of
ineffective assistance of counsel. His petition for relief is hereby dismissed.
An appropriate Order shall issue.

UNITED STATES DISTRICT JUDGE
JAN 2„9,2002
DATE

6

FILED: May 19, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-6906
(3:98-cr-00166-HEH-1)

UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
MARIO SALAS
Defendant - Appellant

ORDER
The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Diaz, Judge Quattlebaum, and
Judge Cogbum.
For the Court
/s/ Patricia S. Connor, Clerk

FILED: May 21, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-6906
. (3:98-cr-00166-HEH-l)

UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
MARIO SALAS
Defendant - Appellant

ORDER
The court denies the motion for extension of time to file a brief supporting
the petition for rehearing and rehearing en banc previously filed on April 20,2020.
The court denied the petition for rehearing and rehearing en banc on May 19, 2020.
For the Court-By Direction
/s/ Patricia S. Connor. Clerk

FILED: May 28, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-6906
(3:98-cr-00166-HEH-1)

UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
MARIO SALAS
\

Defendant - Appellant

ORDER
The court grants a certificate of appealability on Mr. Salas’ claim that the
district court committed error in dismissing his § 2255 motion on the ground that it
was untimely.
A copy of this order shall be sent to the clerk of .the district court.
For the Court
/s/ Patricia S. Connor. Clerk

USCA4 Appeal: 18-6906

Doc: 35

Filed: 09/05/2019

Pg: 315 of 338

Jury Instructions

351

1

If you believe that any witness has been so

2

impeached, then it is your exclusive province to give

3

the testimony of that witness such credibility or

4

weight, if any, as you may think it deserves.

5

fact that a witness has previously been convicted of

6

a felony or a crime involving dishonesty or false

7

statement is also a factor you may consider in

8

weighing the credibility of that witness.

9

of such a conviction does not necessarily destroy the

)

•

The fact

10

witness' credibility, but it is one of the

11

circumstances you may take into account in

12

determining the weight to be given to his or her

13

testimony.

14

}

The

Now, the testimony of an alleged accomplice, and

15

we had some folk who were members of the conspiracy

16

that is alleged to be existent here, the testimony of

17

an alleged accomplice and the testimony of one who

18

provides evidence against a defendant as an informer

19

for immunity from punishment or for personal

20

advantage or vindication must always be examined and

21

weighed by the jury with greater care and caution

22

than the testimony of an ordinary witness.

23

jury must decide whether the witness' testimony has

24

been affected by any of those circumstances or by his

25

or her interest in the outcome of the case, or by

Suppl. App. 311

You the

USCA4 Appeal: 18-6906

Doc: 35

Filed: 09/05/2019

Pg: 317 of 338

Jury Instructions

353

1

Virginia and elsewhere within the ^jurisdiction of

2

this Court, the defendants, Mario Salas and Pascual

3

Salas, also known as Jan Jan, did unlawfully,

4

knowingly, and intentionally combine, conspire,

5

confederate, and agree with each other and other

6

people, both known and unknown to the grand jury, to

7

commit offenses against the United States, to wit: to

8

possess heroin, a Schedule I controlled substance

9

with intent to distribute in violation of Title 21
And to distribute a mixture

10

U,S. Code Section 841.

11

or substance containing a detectable amount of heroin

12

in violation of Title 21 U.S. Code Section 846,

13

and/or to manufacture a mixture or substance

14

containing detectable amounts of heroin in violation

15

of Title 21 U.S. Code Section 841.

16

The statute defining this offense, Count One,

17

and there is only one count, Title 21 United States

18

Code Section 846, provides in pertinent part any

19

person who conspires to commit any offense defined in

20

this subchapter, which shall include an offense of

21

Title 21 U.S. Code Section 841(a)(1), shall be guilty

22

of an offense against the laws, against the laws of

23

the United States.

24

Code Section 841, is in this case alleged to be the

25

object of the charged conspiracy.

w*-*-*.....

Now, that code, Title 21 U.S.

?•, t

Suppl. App. 313

That part of the

•1

USCA4 Appeal: 18-6906

Doc: 35

Filed: 09/05/2019

Pg: 319 of 338

Jury Instructions

355

1

to the public safety and welfare than individual

2

conduct and increases the likelihood of success of a

3

particular criminal venture.

)

4
5

conspiracy.

6

some way or manner, positively or tacitly, came to a

7

mutual understanding to try to accomplish a common

8

and unlawful plan as charged in the indictment; and

9

two, that the defendant, Mario Salas, willfully

10
11

i

There are two essential elements of the crime of
Number 1:

That two or more persons in

became a member of such conspiracy.
In order to prove the first element of a

12

conspiracy, the existence of an agreement, the United

13

States need not prove that the alleged members of the

14

conspiracy met together and entered into any express

15

or formal agreement.

16

need not prove that the alleged conspirators stated

17

in words or writing what the scheme was, its objects

18

or purposes, or every precise detail of the scheme or

19

the means by which its objects or purposes were to be

20

accomplished.

21

United States to show that the conspirators came to a

22

mutual understanding to accomplish an unlawful act by

23

means of a joint plan or common design.

24
25

Similarly, the United States

Indeed, it is sufficient for the

You may, of course, find that the existence of
an agreement to disobey or disregard the law has been

Suppl. App. 315

USCA4 Appeal: 18-6906

Doc: 35

Filed: 09/05/2019

Pg: 321 of 338

Jury Instructions

357

1

defendant's participation in the conspiracy must be

2

established by independent evidence of his own acts

3

or statements.

4

of inference from the facts proved,

5

connection, I instruct you that to become a member of

6

a conspirator the conspiracy, the defendant need not

7

have known the identities of each and every other

8

member, nor need he have been apprised of all of

9

their activities.

}

;

The defendant' s knowledge is a matter

Moreover, the defendant need not

10

have been fully informed as to all of the details or

11

the scope of the conspiracy in order to justify an

12

inference of knowledge on his part.

13

defendant need not have joined in all of the

14

conspiracy's objectives.

15

Furthermore, the

The extent of a defendant's participation has no

16

bearing on the issue of a defendant's guilt.

17

conspirator's liability is not measured by the extent

18

or duration of his or her participation.

19

each member may perform separate and distinct acts

20

and may perform them at different times.

21

A

Indeed,

Some conspirators play major roles while others

22

played minor parts in the scheme.

23

not what the law requires.

24

act may be sufficient to draw the defendant within

25

the ambit of the conspiracy.

An equal role is

In fact, even a single

i

Suppl. App. 317

L

In this

II

USCA4 Appeal: 18-6906

Doc: 35

Filed: 09/05/2019

Pg: 323 of 338

Jury Instructions

359

1

it for the purpose of furthering the illegal

2

undertaking.

3

willing participant in the unlawful agreement/ that

4

is to say, a conspirator.

5

matter of law that heroin is a Schedule I narcotic

6

controlled substance.

7

deliver a controlled substance to the possession of

8

another, which in turn means the actual /

9

constructive, or attempted transfer of a controlled

He thereby becomes a knowing and

j

10
11

You are instructed as a

The term distribute means to

substance.
The law permits the jury in proper circumstances

12

to infer intent to distribute from the quantity of

13

the substance possession had, and/or the manner in

14

which it is packaged,

15

intent to distribute, however, should be resolved by

16

the jury upon all of the evidence in the case.

17

United States has not — is not required to show that

.18

the defendant knew that the substance involved was

19

heroin.

20

beyond a reasonable doubt that the members of the

21

conspiracy possessed some controlled substance with

22

intent to distribute.

23

of possession:

24

possession.

25

control over a thing at a given time is then in

The ultimate question of an

The

It is sufficient if the evidence establishes

The law recognizes two ki,nds

Actual possession and constructive

A person who knowingly has direct

Suppl. App. 319

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA

)
)
)
)
)
)
)
)

v.

MARIO SALAS and
PASCUAL SALAS
a/k/a “Jan Jan”
a/k/a “Emanuel Tejoda”

i

JUN-4 1998

MIL3
CLERK. U S

CRIMINAL N0.3:98CR IbG
21 U.S.C. § 846
Conspiracy to Distribute Heroin

INDICTMENT
June 1998 TERM - At Richmond
COUNTONE
CONSPIRACY TO DISTRIBUTE HEROIN
THE GRAND JURY CHARGES THAT beginning in or about 1996, and continuing
thereafter until the present day, in the Eastern District of Virginia, and elsewhere, within the
jurisdiction of the Court, the defendants MARIO SALAS and PASCUAL SALAS a/k/a “Jan
Jan” did unlawfully, knowingly, and intentionally combine, conspire, confederate and agree
with each other and other people, both known and unknown to the Grand Jury, to commit
offenses against the United States, to wit:
(a) to possess heroin, a Schedule I controlled substance, with the intent to distribute, in
violation of Title 21, United States Code, Section 841;

^4
\

i
I
i

RichMKco,jst i

Richmond Division

UNITED STATES OF AMERICA

FILED
IN OPEN COURT

R T-f-

(b) to manufacture a mixture or substance containing detectable amounts of heroin, in
violation of Title 21, United States Code, Section 841;
(c) to distribute a mixture or substance containing detectable amounts of heroin
in violation of Title 21, United States Section, 846.
FORFEITURE BASED UPON COUNT ONE
As a result of the foregoing offense, the defendants shall forfeit to the United States of
America any and all property constituting or derived from any proceeds obtained, directly or
indirectly, as the result of said violation; and any and all of said property used or intended to
be used, in any manner or part, to commit or to facilitate the commission of the aforesaid
violation, including but not limited to the following:
The sum of $1,000,000 in U.S. currency, in that such sum in
aggregate was received in exchange for the distribution of
controlled substances to wit: heroin, a Schedule I controlled
substance.
El Olympico restaurant, 302 Irving Avenue, Brooklyn, New York, 11237.
(Pursuant to 21 U.S.C. §853)
A TRUE BILL
Foreperson

HELEN F. FAHEY
UNITED STATES ATTORNEY
Nicholas S. Altimari
Assistant United States Attorney

2

FOlfl 011-34
IP1. 41

No.

UNITED STATES
EASTERN

district

District of
RICHMOND

COURT

VIRGINIA
Division

THE UNITED STATES OF AMERICA
vs.

MARIO _SALAS_______________
PASCUAL SALAS, aka "Jan Jan" 1 aka "Einanuel Tejoda"

INDICTMENT
In violation of 21 U.S.C. § 846 - Conspiracy to Distribute Heroin
Notice of Forfeiture

A tnte bill.
)
Foreman
*
Filed in open court this

0f_June

4 th
A.D. 19

day,

98
Clerk

■p\)

*

,

Bad, $__

! i

U.S. District Court

Criminal Case Cover Sheet
Place of Offense:
City:

Related Case Information:

Richmond. Virginia

Superseding Indictment____
Same Defendant________
Magistrate Judge Case No._
Search Warrant Case No.__
R 20/R 40 from District of

County/Parish

_____Docket No.3:98CR
New Defendant______

Defendant Information:
This case is related to other proceedings in this Court: YES___ NO
Defendant Name:

If yes, docket No.:

Mario Salas________________________________

Alias Name:
1224 Bushwick. Brooklyn. NY
Address:
Birthdate:Unknown
SS#:Unknown Sex: M Race: W

Nationality

Counsel for Defendant:
U.S. Attorney Information:
AUSA:

Bar #:

G. Wingate Grant

Interpreter:

No

.Yes List language and/or dialect:

Location Status:
Arrest Date:_______
X Has Not Been Arrested
Already in Federal Custody as of______________ in
__ Already in State Custody __ Defendant is available for court proceedings in this District
__ On Pretrial Release
__ Fugitive
U.S.C. Citations
Total # of Counts: _/
Statute
21 U.S.C. 6 846
21 U.S.C. Section 853

Date:

A-

Misdemeanor

__ Petty

Description of Offense Charged
Conspiracy to Distribute Heroin
Notice of Forfeiture

Signature of AUSA//

v/

X Felony
Count(s)
1

1
i

I

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
RICHMOND DIVISION

UNITED STATES OF AMERICA
v.

Criminal Action Number 3:98CR16601

MARIO SALAS
Defendant.

VERDICT
- WE, THE JURY, FIND: the defendant, MARIO SALAS

as charged in Count 1 of the indictment.
(Guilty or Not Guilty)

SO SAY WE ALL.

JTFlEB, /m
DATE

FOREPERSON’S SIGNATURE

»

£

if

385

I

(ORDER LIST: 589 U.S.)
THURSDAY, MARCH 19, 2020

ORDER

In light of the ongoing public health concerns relating to COVID-19, the
following shall apply to cases prior to a ruling on a petition for a writ of certiorari:
IT IS ORDERED that the deadline to file any petition for a writ of certiorari
due on or after the date of this order is extended to 150 days from the date of the
lower court judgment, order denying discretionary review, or order denying a timely
petition for rehearing. See Rules 13.1 and 13.3.
IT IS FURTHER ORDERED that motions for extensions of time pursuant to
Rule 30.4 will ordinarily be granted by the Clerk as a matter of course if the grounds
for the apphcation are difficulties relating to COVID-19 and if the length of the
extension requested is reasonable under the circumstances. Such motions should
indicate whether the opposing party has an objection.
IT IS FURTHER ORDERED that, notwithstanding Rules 15.5 and 15.6, the
Clerk will entertain motions to delay distribution of a petition for writ of certiorari
where the grounds for the motion are that the petitioner needs additional time to file
a reply due to difficulties relating to COVID-19. Such motions will ordinarily be
granted by the Clerk as a matter of course if the length of the extension requested is
reasonable under the circumstances and if the motion is actually received by the
Clerk at least two days prior to the relevant distribution date. Such motions should
indicate whether the opposing party has an objection.

IT IS FURTHER ORDERED that these modifications to the Court’s Rules
and practices do not apply to cases in which certiorari has been granted or a direct
appeal or original action has been set for argument.
These modifications will remain in effect until further order of the Court.

